CERTIFICATE OF SERVICE
I do hereby certify pursuant to Rule 29.5 of this Court, that the foregoing work
product labeled as a Petition for a Writ of Certiorari with separate Certificate
of Service, and a detached Certificate of Compliance was dispatched, mailed,
and/or sent to Respondent Bureau of the Fiscal Service, and to its identified
lawyers, agents, or representatives located at the addresses listed below, by
causing them to be mailed certified first class, on the 31st day of August 2019.
All parties required to be served have been served.
SIGNED AND DATED this 31st day of August 2019.

By:
J. Nolan Renobato
(213)364-8250
SERVICE LIST
Bureau of the Fiscal Service
Bureau of the Fiscal Service
f.k.a. Bureau of the Public Debt
f.k.a. Bureau of the Public Debt
401 14th Street SW
200 Third Street
Parkersburg,
West Virginia. 26106
Washington, D.C. 20227
(844)284-2676
(202)622-2000
VIA: USPS # 7018 3090 0002 3043 0006
VIA: USPS # 7017 3380 0000 8663 2006
EXPANDED SERVICE
Department of Justice
Department of Justice
William P. Barr, Attorney General
Ryan K. Patrick, U.S. Attorney [SDoT]
950 Pennsylvania Ave. NW
1000 Louisiana, Suite 2300
Washington, D.C. 20530-0001
Houston, Texas. 77002
(202)514-2000
(713)567-9000
VIA: USPS # 7019 0160 0000 5071 2500
VIA: USPS # 7017 3040 0000 9640 2700
COURTESY SERVICE
Department of Justice
Noel Francisco, Solicitor General*
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
(202)514-2203
VIA: USPS # 7017 1450 0000 7438 6663
* The United States was terminated from the caption by the 5th Circuit on 12/11/18.
-fflertificatc-

